     DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of Inspector General

                                                                               Washington, D.C. 20201




September 21, 2011


TO:                   Peter Budetti
                      Deputy Administrator and Director
                      Center for Program Integrity
                      Centers for Medicare & Medicaid Services

                      Deborah Taylor
                      Director and Chief Financial Officer
                      Office of Financial Management
                      Centers for Medicare & Medicaid Services


FROM:                 /Brian P. Ritchie/
                      Assistant Inspector General for the
                        Centers for Medicare & Medicaid Audits


SUBJECT:              Medicare Compliance Review of Baystate Medical Center for Calendar
                      Years 2008 and 2009 (A-01-11-00500); and Medicare Compliance
                      Review of University of California, San Francisco, Medical Center for
                      Calendar Years 2008 and 2009 (A-09-11-02034)


Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to Baystate Medical Center and the University
of California, San Francisco, Medical Center within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative designed to concurrently review multiple issues at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.
The two attached reports are the fourth and fifth reports issued in this initiative.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or your staff may contact the
respective Regional Inspectors General for Audit Services:

Baystate Medical Center
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I
(617) 565-2689, email - Michael.Armstrong@oig.hhs.gov
Page 2 – Peter Budetti, Deborah Taylor


University of California, San Francisco, Medical Center
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX
(415) 437-8360, email – Lori.Ahlstrand@oig.hhs.gov


Attachment


cc:
Jacquelyn White, Director
Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

September 21, 2011


Report Number: A-09-11-02034

Mr. Mark Laret
Chief Executive Officer
University of California, San Francisco, Medical Center
500 Parnassus Avenue, 5th Floor
San Francisco, CA 94143-0296

Dear Mr. Laret:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of University of California,
San Francisco, Medical Center for Calendar Years 2008 and 2009. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please call Kimberly Kennedy, Senior
Auditor, or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to report number
A-09-11-02034 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Mark Laret


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    MEDICARE COMPLIANCE
   REVIEW OF UNIVERSITY OF
  CALIFORNIA, SAN FRANCISCO,
     MEDICAL CENTER FOR
       CALENDAR YEARS
       2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-09-11-02034
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

University of California, San Francisco, Medical Center (the Hospital) is an acute-care hospital
located in San Francisco, California. Medicare paid the Hospital approximately $499 million for
17,409 inpatient and 386,492 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2008 and 2009 based on CMS’s National Claims History data.

Our audit covered $4,394,664 in Medicare payments to the Hospital for 215 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 and 2009 and consisted of 160 inpatient and 55 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 96 of the 215 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare


                                                 i
billing requirements for the remaining 119 claims, resulting in overpayments totaling $784,277
for CYs 2008 and 2009. Specifically, 98 inpatient claims had billing errors, resulting in
overpayments totaling $754,333, and 21 outpatient claims had billing errors, resulting in
overpayments totaling $29,944. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •    refund to the Medicare contractor $784,277, consisting of $754,333 in overpayments for
        the incorrectly billed inpatient claims and $29,944 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital stated that it concurred with most of our
findings. Regarding our recommendations, the Hospital stated that it had refunded the full
amount of the overpayments and provided information on actions that it had taken to strengthen
controls to ensure full compliance with Medicare requirements.

The Hospital did not concur with two of our findings. Regarding the finding related to inpatient
claims for beneficiary stays that should have been billed as outpatient services, the Hospital
stated that five of the erroneous claims were Medicare managed care claims for which the
Hospital received preauthorization for inpatient admission from the Medicare managed care
organization. Regarding the finding related to inpatient claims for patient discharges that should
have been billed as transfers to other facilities, the Hospital stated that for four of the erroneous
claims, the patients decided to seek alternative health care services at other facilities without the
Hospital’s knowledge.

The Hospital’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments on our draft report, we maintain that our findings are
valid. Regarding the finding related to inpatient claims for beneficiary stays that should have
been billed as outpatient services, we acknowledge that the Hospital received preauthorization
for inpatient admission from the Medicare managed care organization. However, as a result of
our review, the Hospital subsequently determined that the patients did not meet the severity of
illness or level of care required to be admitted as inpatients. Regarding the finding related to
inpatient claims for patient discharges that should have been billed as transfers to other facilities,
the Hospital is responsible for coding the bill based on its discharge plan for the patient. If the
Hospital subsequently determines that postacute care was provided, it is responsible for either
coding the original bill as a transfer or submitting an adjusted claim.


                                                  ii
                                                   TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         University of California, San Francisco, Medical Center ..............................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrect Discharge Status .............................................................................................6
          Incorrect Diagnosis-Related Groups ..............................................................................6
          Incorrect Charges Resulting in Incorrect Outlier Payments ..........................................7
          Incorrectly Billed as Separate Inpatient Stay .................................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Incorrect Healthcare Common Procedure Coding System Codes
            or Number of Units .....................................................................................................8
          Incorrectly Billed as Outpatient .....................................................................................8

      RECOMMENDATIONS ......................................................................................................8

      HOSPITAL COMMENTS ....................................................................................................9

      OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................................9


APPENDIX

      HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.
1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. Examples of the types of claims at risk for noncompliance included the following:

    •   inpatient claims for short stays,

    •   inpatient claims with post-acute-care transfers,

    •   inpatient claims with high severity level DRGs,

    •   inpatient claims for blood clotting factor drugs,

    •   outpatient claims billed before and/or during inpatient stays,

    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was
        distinct from other services performed on the same day),

    •   inpatient and outpatient claims paid in excess of charges, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 3, section 10, of the Manual states that a hospital
may bill only for services provided. Chapter 23, section 20.3, of the Manual states that providers
must use HCPCS codes for most outpatient services.



                                                 2
University of California, San Francisco, Medical Center

University of California, San Francisco, Medical Center (the Hospital) is an acute-care hospital
located in San Francisco, California. Medicare paid the Hospital approximately $499 million for
17,409 inpatient and 386,492 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2008 and 2009 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,394,664 in Medicare payments to the Hospital for 215 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 and 2009 and consisted of 160 inpatient and 55 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient claims selected for review because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

This report focuses on selected inpatient and outpatient claims and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from March to July 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 and 2009;




                                                 3
   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2008 and 2009;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 215 inpatient and outpatient claims for detailed review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been canceled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims (through questionnaires and interviews with Hospital personnel);

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 96 of the 215 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 119 claims, resulting in overpayments totaling $784,277
for CYs 2008 and 2009. These overpayments occurred primarily because the Hospital’s existing
controls did not adequately prevent incorrect billing of these Medicare claims.

Of 160 selected inpatient claims, 98 claims had billing errors, resulting in overpayments totaling
$754,333:




                                                4
   •   For 40 claims, the Hospital incorrectly billed Medicare Part A for beneficiary stays that
       should have been billed as outpatient services or lacked a physician order to admit the
       patient to inpatient care.

   •   For 39 claims, the Hospital incorrectly billed Medicare for patient discharges that should
       have been billed as transfers to other facilities.

   •   For 14 claims, the Hospital submitted claims to Medicare with incorrect DRGs.

   •   For four claims, the Hospital submitted claims to Medicare with incorrect charges that
       resulted in incorrect outlier payments.

   •   For one claim, the Hospital incorrectly billed Medicare for a same-day readmission that
       should have been combined with the initial inpatient stay in a single claim rather than
       billed as separate claims.

Of 55 selected outpatient claims, 21 claims had billing errors, resulting in overpayments totaling
$29,944:

   •   For 14 claims, the Hospital submitted claims to Medicare with incorrect HCPCS codes or
       an incorrect number of units.

   •   For seven claims, the Hospital incorrectly billed Medicare Part B for outpatient services
       provided during inpatient stays. These services should have been included on the
       Hospital’s inpatient (Part A) claims to Medicare.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 98 of 160 selected inpatient claims, which resulted
in overpayments totaling $754,333.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if “… with respect to inpatient hospital services … which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….”

For 40 of 160 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for these
claims as inpatient:

   •   For 39 claims, the Hospital incorrectly billed for beneficiary stays that should have been
       billed as outpatient services. The Hospital subsequently reviewed each of the claims and


                                                 5
        determined that the patient did not meet the severity of illness or level of care required to
        be admitted as an inpatient.

    •   For one claim, the Hospital incorrectly billed for an inpatient stay that lacked a physician
        order to admit the patient to inpatient care.

The Hospital stated that the 39 errors occurred because the Hospital either relied upon physician
orders to admit the patients as inpatients or did not initially use an evidence-based clinical
decision support tool 4 to evaluate the conditions of the patients. In some instances, the Hospital
followed a clinical evaluation process; however, retrospective review of the complete stay
provided additional information to modify the patient status. In addition, for the one claim that
lacked a physician order, the Hospital stated that the patient left the hospital before the physician
wrote an order for admission. As a result of these errors, the Hospital received overpayments
totaling $376,953.

Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 39 of 160 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers to other facilities. For the majority of these
claims, the Hospital should have coded the discharge status as a transfer to another facility
instead of as a discharge to a home; thus, the Hospital should have received the per diem
payment instead of the full DRG payment. The Hospital stated that these errors occurred
because of the complexity of the process for coding patient discharge status. As a result of these
errors, the Hospital received overpayments totaling $237,082.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”


4
 The Hospital uses McKesson Corp.’s InterQual evidence-based clinical decision support criteria to answer critical
questions about the appropriateness of levels of care and resource use.


                                                        6
For 14 of 160 selected inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRGs. For example, for one claim, the Hospital used the DRG for major chest procedures with
complication/comorbidity rather than using the DRG for major chest procedures without
complication/comorbidity. The Hospital stated that the 14 errors occurred because the Hospital
erroneously entered diagnosis codes or procedure codes on isolated cases that resulted in
incorrect DRGs. As a result of these errors, the Hospital received overpayments totaling
$130,574.

Incorrect Charges Resulting in Incorrect Outlier Payments

The Manual, chapter 3, section 10, states that a hospital may bill only for services provided. In
addition, chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly
and promptly, a bill must be completed accurately.”

For 4 of 160 selected inpatient claims, the Hospital submitted claims to Medicare with incorrect
charges that resulted in incorrect outlier payments. The Hospital stated that these errors occurred
because of clerical mistakes. As a result of these errors, the Hospital received overpayments
totaling $1,773.

Incorrectly Billed as Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated
       by the original stay by combining the original and subsequent stay onto a single
       claim.

For 1 of 160 selected inpatient claims, the Hospital incorrectly billed Medicare for a same-day
readmission that should have been combined with the initial inpatient stay in a single claim
rather than billed as separate claims. The original claim and the claim involving subsequent
readmission were related to the same medical condition and thus should have been billed as a
continuous stay. However, the Hospital did not adjust the original claim by combining the
original and subsequent stays into a single claim. The Hospital stated that this error occurred
because the patient returned to the hospital’s emergency department shortly before midnight on
the date of the initial discharge. As a result, the Hospital received an overpayment of $7,951.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 21 of 55 selected outpatient claims, which resulted
in overpayments totaling $29,944.




                                                 7
Incorrect Healthcare Common Procedure Coding System Codes or Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, section 20.4, of the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed.”

For 14 of 55 selected outpatient claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes or an incorrect number of units:

   •    For nine claims, the Hospital billed Medicare using incorrect HCPCS codes. For
        example, for 1 claim, the Hospital used the HCPCS code for destruction of a malignant
        lesion less than 0.5 centimeters rather than using the HCPCS code for destruction of up to
        14 benign lesions, the procedure actually performed.

   •    For five claims, the Hospital billed Medicare for an incorrect number of units. For
        example, for 1 claim, rather than billing for 26 units of a cancer drug, the Hospital billed
        for 260 units.

The Hospital stated that these errors occurred because of clerical mistakes. As a result of these
errors, the Hospital received overpayments totaling $26,773.

Incorrectly Billed as Outpatient

The Manual, chapter 3, section 10.4, states that Medicare Part A covers certain items and
nonphysician services furnished to inpatients and consequently the inpatient prospective payment
rate covers these services.

For 7 of 55 selected outpatient claims, the Hospital incorrectly billed Medicare Part B for
outpatient services provided during inpatient stays. These services should have been included on
the Hospital’s inpatient (Part A) claims to Medicare. The Hospital stated that these errors
occurred because of a flaw in the Hospital’s prebill edit software that accepted orders for
outpatient services scheduled before the beneficiaries’ inpatient admissions. As a result of these
errors, the Hospital received overpayments totaling $3,171.

RECOMMENDATIONS

We recommend that the Hospital:

   •    refund to the Medicare contractor $784,277, consisting of $754,333 in overpayments for
        the incorrectly billed inpatient claims and $29,944 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.



                                                  8
HOSPITAL COMMENTS

In written comments on our draft report, the Hospital stated that it concurred with most of our
findings. Regarding our recommendations, the Hospital stated that it had refunded the full
amount of the overpayments and provided information on actions that it had taken to strengthen
controls to ensure full compliance with Medicare requirements.

The Hospital did not concur with two of our findings:

      •    Regarding the finding related to inpatient claims for beneficiary stays that should have
           been billed as outpatient services, the Hospital stated that five of the erroneous claims
           were Medicare managed care claims for which the Hospital received preauthorization for
           inpatient admission from the Medicare managed care organization. The Hospital also
           stated that it continues to seek clarification from CMS regarding the discrepancy with
           conflicting authorizations for managed care and Medicare patients.

      •    Regarding the finding related to inpatient claims for patient discharges that should have
           been billed as transfers to other facilities, the Hospital stated that for four of the erroneous
           claims, the patients decided to seek alternative health care services at other facilities
           without the Hospital’s knowledge. The Hospital also stated that the fiscal intermediary
           did not notify the Hospital of these occurrences and cited a reference in the Federal
           Register stating that the fiscal intermediary is required to notify a hospital of the need to
           submit an adjusted claim when a patient is discharged to another hospital.

The Hospital’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments on our draft report, we maintain that our findings are
valid:

      •    Regarding the finding related to inpatient claims for beneficiary stays that should have
           been billed as outpatient services, we acknowledge that the Hospital received
           preauthorization for inpatient admission from the Medicare managed care organization.
           However, as a result of our review, the Hospital subsequently determined that the patients
           did not meet the severity of illness or level of care required to be admitted as inpatients.

      •    Regarding the finding related to inpatient claims for patient discharges that should have
           been billed as transfers to other facilities, the Federal Register 5 emphasizes that the
           Hospital is responsible for coding the bill based on its discharge plan for the patient. If
           the Hospital subsequently determines that postacute care was provided, it is responsible
           for either coding the original bill as a transfer or submitting an adjusted claim.




5
    63 Fed. Reg. 40979, 40980 (July 31, 1998).


                                                      9
APPENDIX
                                                                                                                                                         Page 1 of2


                                                               APPENDIX: HOSPITAL COMMENTS 



                                             Unive rsitv of C.lifo rnia
                                                                                                                                          School of Do-nlt<try
                                             $a n   F c~n ci", o
                                                                                                                                          School of Mf<d.... M
                                                                                                                                          S<.hool cl Nursing
                                                                                                                                          Sc~",,' of~a'm"'Y
                                                                                                                                          Th@    Gr»dual~   ON""'"
                                                                                                                                          ~l V    ~ 1~   aI CentN
                                             A flu lth Sd e n<eS C.mpu.




   -,--,
   ~I",_ "- "".... Ph.D.
   AaooaaIo Vc.       cr.._""
   Ct!oaI EI"""' ..... Com--.oa


   ""~.'"    ... """..... _o,..,..n.,
                                                    Augu st 30. 2011

                                                    Lori A . Ahtslfand
                                                    Regionallnspectof General
                                                    For Audit Services
                                                    Departmertt of Health and Humart Services
   ........."_"...............
   . ... Col ....... " .... < .....


                  . . .... 
 """ 

                                      ,. 

                                                    OffICe of Aud~ Services. Region IX
                                                    90· 7 Slfeet, Su~e 3-650
                                                         TH

                                                    Safl Francisco. CA 941 03

                                                    RE: Report Number A-09.11.02034

                                                    Dear Ms. Ahlstrand:

                                                    On behalf of the University of Califomia San Francisco Medical Center and Marl<. Laret. Chief
                                                    Executive OffICer. I am providing comments to the report entitled "Medicare Compliance
                                                    Review of the Un ivers~y of California San Francisco Medical Cenler for Calendar Years
                                                    2008 and 2009 ". I appreGiate the opportunity to respond to Ihe dran report .

                                                    As noted in the draft report . the Office of Inspector General (DIG) reviewed 215 claims that
                                                    were judgmentally selected as polentlally at risk for bill ing errors. These claims covered 12
                                                    specifIC areas Ihat were determined to be at risk for no...·compliance based on the DIG's
                                                    prior audits. invesliga1ions and inspection at many hosp~als Ihroughout Ihe nation . This
                                                    audit covered S4.394.664 in Medicare payments to the Univers~y of California San Francisco
                                                    Medical Center.

                                                    The University of Califomia San Francisco Medical Center concurs with most of Ihe Office of
                                                    Inspector General"s (OIG's) findings Ihat of 215 sampled claims , 119 claims did not fully
                                                    comply w~h Medicare billing requirements resuRing in overpayments totaling 5782.604" for
                                                    CYs 2008 and 2009. No errors were identified for the issues of Outpatient P ayment
                                                    Exceeding Charge and Inpatient Hemophilia Billing

                                                    The University of Califomia san Francisco Medical Center has made the necessary refunds
                                                    and has taken steps to strengthen conlfols to ensure fUll compliance w~h Medicare
                                                    requirements.

                                                    Our responses to Ihe QIG 's recommendalions are sel forth below:

                                                           1. 	 Refund to the Medicare conlfactor overpayments of 5782 ,604.
                                                                The University of California San Francisco Medical Center has refunded the full
                                                                amount of the overpayments to Medicare.

                                                           2 . 	 Strengthen controls to ensure fUll compliance with Medicare requirements .
                                                                 The University of California San Francisco Medical Center regularly conducts cod ing
                                                                 and compliance education , monitoring and a ud~ing . In order to strengthen these
                                                                 efforts and address the issues raise<! by the OIG's findings. we have Implemented
                                                                                      advanCing heDlrfl worldwide'"




* Office ofInspector General Note: Because of adjustments made after issuance of the draft report, the
overpayments for the 119 erroneous claims totaled $784,277. The Hospital stated that it has submitted all of the
adjustments to the Medicare contractor.
                                                                                                  Page 2 of2




Lori A . Ahlstrand
August 30, 2011
Page 2 of2



         several measures, including the following :
            Provide additional coding education and training and monitoring;
             Simplify, clarify, and streamline processes and documentation as warranted;
         • 	 Provide additional training and monitoring on the application of InterQual criteria
             to enhance conslstenl application ;
         • 	 Update pre bill edit software to provide adequate control reviews.

     3. 	 In regard to the GIG's findings in two specific risk areas , the University of California
          San Francisco Medical Center does not concur. They are as follows :
         • 	 In the risk category of short stays. 5 of the 39 claims selected, reviewed, and
             determined to be in error by the OIG, were Medicare Managed Care claims for
             which the University of California San Francisco Medical Center sought and
             received pre-authorization for inpatient admission from the Medicare Managed
             Care Organization .

While the University of California San Francisco Medical Cenler will apply Inter Qual criteria
for this palient popUlation, conflicting authorizations will create cha llenges . We continue to
seek clarification from eMS regarding this discrepancy with Medicare Managed Care patients
and Medicare patients .
The University of California San Francisco Medical Center will expand the concurrent Case
Management review process to include Medicare and Medicare Managed Care populations.

•	   In the risk category of discharge disposition, 4 of the 39 claims selected, reviewed and
     determined to be in error by the OIG , the University of California San Francisco Medical
     Center discharged the patient to home and, without our knowledge, the patient decided to
     seek other alternative health care services at olher external facil ities. We were not
     notified by our fiscal intermed iary of these occurrences. We are including a reference in
     the Federal Register that supports our position . The reference is as follows:

     Federal Register Vol. 68 45405
      ·We recognize that. in some cases, a hospital cannot know the patient will go to another
     hospital. However, we note the claims processing system can identify cases coded as
     discharges where the date of discharge matches the admission date at another hospital.
     In these cases, the fiscal intermediary will notify the hospital of the need to submit an
     adjustment claim,­

T herefore , the University of California San Francisco Medical Cenler will conllnue to rely on
Palmetto to provide this information absent clarification from eMS .

The University of Ca lifornia San Francisco Med ical Center takes these obligations very
seriously, and will continue to monitor and audit claims and institute additional controls as
indicated above.

Sincerely,

)3~~w...u,... CA. {3c>~
Elizabeth A. Boyd, Ph.D .
Chief Eth ics & Compliance Officer
University of California San Francisco
